No. 19-422

PATRICK J. COLLINS, ET AL.,
PETITIONERS

v.
STEVEN T. MNUCHIN, ET AL.
____________
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
BRIEF FOR PROFESSOR JOHN HARRISON
AS AMICUS CURIAE IN SUPPORT OF RESPONDENTS
_______________

DANIEL R. ORTIZ
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
SUPREME COURT
LITIGATION CLINIC
580 Massie Road
Charlottesville, VA
22903
(434) 924-3127

JOHN HARRISON
Counsel of Record
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
580 Massie Road
Charlottesville, VA
22903
(434) 924-3093
jharrison@law.virginia.
edu

I
TABLE OF CONTENTS
Page
Table of Authorities ............................................... III
Interest of Amicus Curiae ........................................ 1
Summary of Argument ............................................. 1
Argument .................................................................. 4
I.

Unconstitutional Statutory Provisions Are
Invalid When Adopted, and Are Not Made
Invalid Later When a Court Finds
Unconstitutionality,
and
Severable
Provisions are Operative When Adopted,
and Do Not Become Operative Only Later
When a Court Finds Severability ...................... 4
A.

Unconstitutional Statutory Provisions
Are Void When Enacted .............................. 7
1. The
Constitution
Makes
Unconstitutional Statutory Provisions Invalid Ab Initio, and Courts
Later Find Invalidity as Necessary
to Decide Cases ...................................... 7
2. The Court’s Cases Concerning the
Timing of Invalidity Show that If
the
Removal
Restriction
Is
Unconstitutional, It Never Protected the Director from Removal ........ 15

II
3. The Remand in Seila Law, and
Statements Made Concerning It,
Rested on the Position Taken by
One of the Parties ................................ 20
B.

Aspects of a Statute That Are Severable
from Unconstitutional Aspects of That
Statute Become Effective When the
Statute Is Adopted .................................... 22
1. Severability Is An Aspect of
Statutory Content, Which Is Fixed
at Enactment ....................................... 23
2. Severability Questions May Arise
in Formulating a Remedy, but
Severance Is Not a Remedy Given
by the Courts ....................................... 25

II. The Court Need Not Give Petitioners Relief
to Hold that the Removal Restriction Is
Unconstitutional ................................................ 28
III.Officials’ Possibly Mistaken Beliefs About
Removability May Present Questions of
Administrative Law, Not Constitutional
Law, Which Have Not Been Addressed in
This Case ........................................................... 30
Conclusion ............................................................... 32

III

TABLE OF AUTHORITIES
Cases:

Page(s)

Aetna Life Ins. Co. v. Haworth, 300 U.S. 227
(1937) ............................................................ 11, 12
Alaska Airlines, Inc. v. Brock, 480 U.S. 678
(1987) .................................................................. 24
Ayotte v. Planned Parenthood of N. New
England, 546 U.S. 320 (2006) ............................ 26
Barr v. American Ass’n of Pol. Consultants, 140
S. Ct 2335 (2020) .................................... 12, 13, 23
Bivens v. Six Unknown Named Agents of Fed.
Bureau of Narcotics, 403 U.S. 388 (1971) ......... 14
Bond v. United States, 564 U.S. 211 (2011) ........... 10
Bowsher v. Synar, 478 U.S. 714
(1986) ...................................................... 17, 18, 19
Buckley v. Valeo, 424 U.S. 1 (1976) .................. 23, 24
Champlin Refin. Co. v. Corporation Comm’n of
Okla., 286 U.S. 210 (1932) ........................... 24, 29
Clinton v. New York, 524 U.S. 417 (1998) ............. 16
Danforth v. Minnesota, 552 U.S. 264 (2008).......... 11
Davis v. United States, 564 U.S. 229 (2011) .......... 11
Dorchy v. Kansas, 264 U.S. 286 (1924) .................. 25
Free Enter. Fund v. Public Co. Acct. Oversight
Bd., 561 U.S. 477 (2010) .............................. 12, 22
Harper v. Virginia Dep’t of Tax’n, 509 U.S. 86
(1993) .................................................................... 9
Heckler v. Mathews, 465 U.S. 728 (1984) ........ 27, 28

IV
Cases—Continued:

Page(s)

Hill v. Wallace, 259 U.S. 44 (1922) ........................ 24
Humphrey’s Executor v. United States, 295 U.S.
602 (1935) ..................................................... 18, 22
INS v. Chadha, 462 U.S. 919 (1982) ................ 16, 17
James B. Beam Distilling Co. v. Georgia, 501
U.S. 529 (1991) ..................................................... 9
Leavitt v. Jane L., 518 U.S. 137 (1996) .................. 25
Lucia v. SEC, 138 S. Ct. 2044 (2018) ......... 16, 30, 31
Marbury v. Madison, 5 U.S. (1 Cranch) 137
(1803) ................................................................ 2, 8
Myers v. United States, 272 U.S. 52 (1926) ....... 9, 10
NFIB v. Sebelius, 567 U.S. 519 (2012) ................... 13
NLRB v. Noel Canning, 134 S. Ct. 2550 (2014) .... 16
Packingham v. North Carolina, 137 S. Ct. 1730
(2017) .................................................................. 10
Robinson v. Neil, 409 U.S. 505 (1973)...................... 9
Seila Law LLC v. CFPB, 140 S. Ct. 2183 (2020) ... 20
Sessions v. Morales-Santana, 137 S. Ct. 1678
(2017) .................................................................. 29
Shurtleff v. United States, 189 U.S. 311 (1903)..... 22
Synar v. United States, 626 F. Supp. 1374
(D.D.C. 1986) ................................................ 17, 18
United States v. Booker, 543 U.S. 220 (2005) ........ 26
United States v. Davis, 139 S. Ct. 2319 (2019) ...... 10
Youngstown Sheet & Tube Co. v. Sawyer, 343
U.S. 579 (1952) ................................................... 17

1

Interest of Amicus Curiae1
John Harrison is a professor at the University of
Virginia School of Law. He teaches and writes about
constitutional structure, federal courts, and
severability and has an interest in the sound
development of the law in these fields.
Summary of Argument
The invalidity of unconstitutional statutory rules is
brought about by the Constitution. The severance of
statutory rules that are constitutional and severable is
brought about by the statute involved. Because they
are caused by the Constitution and the statute in
question, those results arise when the statute is
adopted. They are not brought about later by the
courts; courts do not give a remedy that changes the
content of statutory law by invalidating or severing
parts of a statute. Invalidity and severance are made
by the law and found by the courts in applying the law
to cases. If the statutory grants of power to the FHFA
The parties have consented in writing to the filing of this brief
and their letters of consent have been filed with the Clerk. No
party’s counsel authored this brief in whole or in part, and no
party’s counsel or party made a monetary constribution intended
to fund its preparation or submission. The University of Virginia
School of Law provides financial support for activities related to
faculty members’ research and scholarship and for clinical
activities, which helped defray the costs of preparing this brief.
(The School is not a signatory to the brief and the views expressed
here are those of the amicus curiae.) Otherwise, no person or
entity other than the amicus curiae has made a monetary
contribution intended to fund the preparation or submission of
this brief.
1

2
at issue in this case are severable from the removal
restriction, the grants have been operative since the
statute was adopted. Petitioners can prevail on
constitutional grounds only if the removal restriction
is unconstitutional and the grants of power are
inseverable from it. (This brief addresses only petitioners’ argument based on the Constitution.)
Petitioners maintain that the removal restriction
at issue in this case is unconstitutional and that it
rendered the FHFA Director’s actions unlawful even if
the statutory grants of power to the Director are
severable from the removal restriction. They argue
that an official who is unconstitutionally insulated
from removal may not exercise power, that the
Director was so insulated when he took the actions
they challenge, and that the unconstitutional
insulation will continue in effect until a judicial
decision makes it invalid. Petitioners’ argument
misconceives the operation of the Constitution, the
role of the courts in enforcing it, and the timing of legal
events that follows from the Constitution and the
courts’ role. No official is ever insulated from removal
by an unconstitutional statutory provision.
The
Constitution’s self-executing effect invalidates
statutory rules that are unconstitutional. Invalidity
does not wait for a judicial act. Courts find invalidity
when appropriate in deciding cases. They do not make
it. The Constitution does. Marbury v. Madison, 5 U.S.
(1 Cranch) 137 (1803).
Just as the invalidity of unconstitutional statutory
rules arises when the statute is adopted, so does the
severance of the invalid part from other rules that are

3
themselves constitutional and severable. If part of a
statute is unconstitutional, other parts that are
constitutional and severable go into effect when the
statute is adopted. The constitutional and unconstitutional parts are severed from one another by the
statute itself because a statute’s operation in light of
partial unconstitutionality is an aspect of its content.
That content is fixed upon enactment. Courts later
find it when appropriate. They do not, however, sever
statutes in the sense of changing their content. Courts
do not apply a remedy of severance that causes
previously inoperative components to come into force
by cutting out unconstitutional components and
freeing the rest of the statute from the effect of the
unconstitutional parts. Unconstitutional components
of statutes have no legal effect.
Invalidity arises ab initio by operation of the
Constitution. Severance and non-severance arise ab
initio by operation of the statute. Courts find them
and do not bring them about. If the agency powers at
issue here are severable from the removal restriction,
they have been operative from the beginning.
Petitioners can prevail only if the removal restriction
is unconstitutional and the grants of power are
inseverable from it.
The Court need not give petitioners relief in order
to hold the removal restriction unconstitutional. If the
Court’s reasoning in deciding the case is that the
restriction is unconstitutional but severable, so that
respondents prevail, its reasoning concerning the
constitutional issue will be a holding. The resolution
of an issue that could have been decisive, but that was

4
not decisive because of the resolution of another issue,
is not a dictum.
Cases like this present a problem of administrative,
not constitutional, law that has not been explored.
Unconstitutional removal restrictions are void ab
initio, but they may not be known to be void by the
officials they affect. An official’s incorrect belief that
the official is not freely removable by the President
may affect the official’s actions.
Principles of
administrative law address situations in which an
erroneous legal assumption affected an official
decision. Principles of constitutional invalidity and
severability deal with the content of the law itself, not
with possibly mistaken official beliefs about it. The
way in which administrative law may deal with
mistaken beliefs about removability is an important
issue, but it has not been explored in this case.
Argument
I. Unconstitutional Statutory Provisions Are
Invalid When Adopted, and Are Not Made
Invalid Later When a Court Finds
Unconstitutionality, and Severable Provisions are Operative When Adopted, and Do
Not Become Operative Only Later When a
Court Finds Severability
Petitioners seek a remedy that would undo acts of
the Director of the FHFA. They are entitled to such a
remedy only if those acts were unlawful. Petitioners
argue that the Director’s tenure protection is
unconstitutional, but they are not directly subject to
the provisions of the act that structure the agency.

5
They can obtain the remedy they seek only if the
removal restriction somehow undermines the
lawfulness of the Director’s acts. If the removal
restriction is unconstitutional and the relevant
statutory grants of power to the Director are
inseverable from the restriction, then the Director's
acts lacked statutory authority. If an otherwiseconstitutional statutory provision is conditioned on the
constitutionality of another provision—if the two are
inseverable—then the otherwise-constitutional provision is inoperative if the other provision is
unconstitutional.
Petitioners maintain that they are entitled to the
relief they seek even if the grants of power are
severable from the removal restriction.
Their
argument relies on the alleged unconstitutionality of
the removal restriction. Petitioners do not argue that
the grants of power are inoperative until Congress
itself repeals the removal restriction. They assume
that if this Court finds that the removal restriction is
unconstitutional but the grants of power are severable,
the removal restriction will not undermine acts of the
Director taken after the Court’s decision. Their claim
for what they call backward-looking relief rests on the
premise that until this Court makes such a decision,
the unconstitutionality of the removal restriction
causes the grants of power to be ineffective even if they
are severable.
For petitioners to prevail on this theory, the
removal restriction must have some legal effect, even
though it is unconstitutional, and that legal effect
must change with a decision of this Court. Two lines

6
of reasoning might support that conclusion. First, an
unconstitutional removal restriction might be legally
operative, protecting officials from removal, even
though it is unconstitutional, until a court “strikes it
down.”2 Acts of officials who are protected by an
unconstitutional but valid removal restriction might
be unlawful because of the officials’ insulation from
removal.
Second, statutory provisions that are
themselves constitutional and severable from an
unconstitutional provision might be inoperative until
they are held to be severable by a court, as if a judicial
act of severance freed the constitutional provision from
the unconstitutional provision that up to that point
made the other inoperative.
Both lines of reasoning are incorrect for the same
reason. They rest on an error about the time at which
the relevant legal events occur, and a related error
about the significance of judicial decisions.
Unconstitutional statutory rules are invalid ab initio,
and never come into effect. The Constitution’s selfexecuting effect invalidates them immediately.
Invalidity is later found by courts in the process of
deciding cases, but courts do not bring it about. No
agency is ever “unconstitutionally independent of the
President.” Agency heads and the President may
mistakenly believe that an unconstitutional removal
restriction is constitutional, and so mistakenly believe
that an agency head is independent. Agency heads
who actually are unconstitutionally independent of the
Two judges on the court of appeals referred to an order
prospectively striking down the removal restriction. Pet. Br. 64,
Pet. App. 73a-75a.
2

7
President, however, are like square circles. Neither
can exist.
Severability and inseverability arise when a
statute is adopted, so a severable provision is operative
when the statute is enacted. Severability arises ab
initio because it is part of the statute’s content.
Severability and inseverability are later found by
courts in the process of deciding cases. Courts do not,
strictly speaking, change the content of the law by
severance any more than they change the content of
the law by invalidation. Judicial severance and
invalidation are figures of speech that must be used
with care.
A. Unconstitutional Statutory Provisions Are
Void When Enacted
1. The Constitution Makes Unconstitutional Statutory Provisions Invalid
Ab Initio, and Courts Later Find
Invalidity as Necessary to Decide Cases
The first line of reasoning on which petitioners’
theory may rest attributes to the Constitution a
strange collection of principles. The Constitution,
according to this theory, disapproves of certain
removal restrictions. It does not, however, keep them
from going into effect. An officer who is subject to an
unconstitutional removal restriction is in fact
protected from removal, even though the restriction is
unconstitutional. The Constitution does not invalidate
the restriction ab initio, but it does have two other
consequences. First, it instructs courts to cause
unconstitutional restrictions to become invalid

8
prospectively from the time of the court’s decision.
Second, the Constitution does make invalid, not
removal restrictions, but the acts of officials who are
protected by unconstitutional but operative removal
restrictions. The Constitution does that as long as
such restrictions are in force, which they are until a
court invalidates them.
The Constitution does not engage in half measures
like that. If petitioners are correct that the removal
restriction is unconstitutional, it was void when
adopted and never went into effect. It was rendered
invalid by the Constitution’s self-executing effect.
Chief Justice Marshall thought it “a proposition too
plain to be contested that the Constitution controls
any legislative act repugnant to it.” Marbury, 5 U.S.
(1 Cranch) at 177. He attributed that control to the
Constitution itself, not the judgment of any court. As
he explained, “a legislative act contrary to the
Constitution is not law.” Ibid. The courts’ obligation
to disregard unconstitutional laws follows from such
laws’ invalidity, which the Constitution itself
produces. “If an act of the Legislature repugnant to
the Constitution is void, does it, notwithstanding its
invalidity, bind the Courts and oblige them to give it
effect? Or, in other words, though it be not law, does it
constitute a rule as operative as if it was a law?” Ibid.
To find that courts should follow invalid statutory
provisions “would be to overthrow in fact what had
been established in theory.” Ibid.
Because unconstitutional statutory provisions are
void ab initio, courts treat them as already being void
at the time a case is decided. That is why judicial

9
findings of unconstitutionality are in a manner of
speaking retrospective: they apply the law as it
already is, including to events that took place before
the court’s decision. “‘[B]oth the common law and our
own decisions’ have ‘recognized a general rule of
retrospective effect for the constitutional decisions of
this Court.’” Harper v. Virginia Dep’t of Tax’n, 509
U.S. 86, 94 (1993) (quoting Robinson v. Neil, 409 U.S.
505, 507 (1973)).
Justice Scalia explained how that result follows
from the principle that courts apply the law. Judges
make law, he wrote, “but they make it as judges make
it, which is to say as though they were ‘finding’ it,
discerning what the law is, rather than decreeing what
it is today changed to, or what it will tomorrow be.”
James B. Beam Distilling Co. v. Georgia, 501 U.S. 529,
549 (1991) (Scalia, J., concurring in the judgment).
For purposes of determining when invalidity arises,
the Constitution makes invalidity and judges find it.
Judges make law in the sense that they
authoritatively clarify its content. But courts produce
clarifications of the law, and those clarifications
therefore generally operate as of the time the law was
adopted.
The Court applied the principle of ab initio
invalidity in Myers v. United States, 272 U.S. 52
(1926). Myers was a suit for back pay, maintained in
this Court by the administratrix of a Postmaster who
had been removed contrary to a statutory removal
restriction.
The Court found the restriction
unconstitutional. Id. at 176. It denied Myers’ claim
for back pay. Id. at 177 (affirming the Court of

10
Claims’s judgment against Myers). The disposition of
the case entails that the removal restriction was
invalid when it was adopted. If it had become invalid
only when the Court found it to be so, it would have
been valid from the day Myers was removed until the
end of the four-year term to which he had been
appointed. See id. at 106 (noting that Myers claimed
back pay up to the expiration of his term on July 21,
1921).
In criminal prosecutions, the Court regularly
applies the principle that unconstitutional statutory
rules are invalid when adopted. When the Court
reviews a criminal conviction under an allegedly
unconstitutional statute, it deals with conduct that
took place after the statute was enacted but before the
Court decided on its constitutionality.
Because
unconstitutional statutes are inoperative when
enacted, conduct that violates them is never criminal.
See, e.g., United States v. Davis, 139 S. Ct. 2319, 23232324 (2019) (affirming that unconstitutionally vague
statute “is no law at all” and cannot support a criminal
conviction); Packingham v. North Carolina, 137 S. Ct.
1730, 1738 (2017) (holding that conduct contrary to a
statute that was inconsistent with the First
Amendment not criminal); Bond v. United States, 564
U.S. 211, 236 (2011) (Ginsburg, J., concurring) (“Bond,
like any other defendant, has a personal right not to
be convicted under a constitutionally invalid law.”). If
unconstitutional statutes became invalid only when
made so by a court, violations prior to judicial
invalidation would be crimes.

11
The principle that applications of the Constitution
are retroactive in the sense that they apply to events
that already occurred extends beyond the
Constitution’s invalidation of statutes. It also applies
to the Constitution’s rules concerning criminal
investigation. Those rules, whenever found by the
courts, apply to investigators’ conduct as of the time
that conduct occurs. That is why changes in this
Court’s doctrine apply, in effect, retroactively. “As we
have previously said, the ‘source of a “new rule” is the
Constitution itself, not any judicial power to create
new rules of law.’” Davis v. United States, 564 U.S.
229, 254 (2011) (Breyer, J., dissenting) (quoting
Danforth v. Minnesota, 552 U.S. 264, 271 (2008)).3
The use of declaratory relief in constitutional cases
confirms that invalidity is made by the Constitution
and recognized by the courts. Coercive remedies like
injunctions change legal relations.
Declaratory
remedies resolve disputes by conclusively stating legal
relations that already exist. Aetna Life Ins. Co. v.
Haworth, 300 U.S. 227 (1937), in which the Court
found that the federal Declaratory Judgment Act is
consistent with Article III, illustrates the point. Aetna
sought a declaration that certain insurance policies
“had lapsed according to their terms,” so that Aetna
Davis involved the Fourth Amendment, which governs the
conduct of officials, not the validity of statutes. 564 U.S. at 232.
The Court in Davis agreed with Justice Breyer that, under a
later-announced Fourth Amendment principle, the officers’
conduct at issue in Davis had been unlawful. Id. at 240. The
issue in that case, which divided the Court, was the operation of
the remedy of exclusion of evidence. Id. at 242.
3

12
had no duty to pay under them. Id. at 238. Aetna’s
claim for declaratory relief rested on its argument that
the policies already were void—that they “had lapsed.”
Ibid. When the Court finds that a statutory provision
is unconstitutional and invalid and directs that
declaratory relief be given, e.g., Free Enterprise Fund
v. Public Company Accounting Oversight Bd., 561 U.S.
477, 513 (2010) (directing declaratory relief), its
judgment rests on the assumption that the
Constitution produced a result that a court can declare
and did not bring about.
The Constitution invalidates statutory rules that
are inconsistent with it. The courts neither have nor
need any power to make statutory rules inoperative
themselves. They do not “invalidate” statutory rules
by giving a remedy that changes the content of the law.
“The term ‘invalidate’ is a common judicial shorthand,”
this Court has noted, for “when the Court holds that a
particular provision is unlawful and therefore may not
be enforced against a plaintiff. To be clear, however,
when it ‘invalidates’ a law as unconstitutional, the
Court of course does not formally repeal the law from
the U.S. Code or the Statutes at Large.” Barr v.
American Ass’n of Pol. Consultants, Inc., 140 S. Ct.
2335, 2351 n.8 (2020) (opinion of Kavanaugh, J.)
(emphasis added). A holding is not a remedy strictly
speaking. When a court holds that a statutory
provision is unconstitutional and invalid, “the formal
remedy afforded to the plaintiff is an injunction,
declaration, or damages.” Ibid. Holdings find but do
not change the generally-applicable law. Remedies
change or declare the legal relations of the parties

13
before the court.4 Holdings of this Court have an effect
similar to actual invalidation, but that effect works
through norms of precedent, not by changing the
content of the law. Ibid.
Diverging holdings on the same constitutional
question by the federal courts of appeals show that
there is no remedy of invalidation. When one court of
appeals finds a statutory rule invalid and another
finds the same rule valid, the difference is in judicial
decisions, not in the content of the law.5 The statute
is not in the condition of the unfortunate cat in the
Justice Gorsuch’s analysis in American Association of Political
Consultants also reflects the distinction between conclusions of
unconstitutionality, which may be said to invalidate statutory
rules, and remedies strictly speaking. He found that the
statutory rule at issue was unconstitutional as applied to the
plaintiffs themselves, Barr v. American Ass’n of Pol. Consultants,
Inc., 140 S. Ct. 2335 (2020) (Gorsuch, J., concurring in the
judgment in part and dissenting in part) (finding that regulation
of robocalls is a content-based regulation that fails strict
scrutiny), so that severability was irrelevant, id. at 2365-2366.
Having reached that conclusion on the constitutional question, he
found that the plaintiffs were entitled to “an injunction
preventing its enforcement against them. This is the traditional
remedy for proven violations of legal rights likely to work
irreparable injury in the future.” Id. at 2365. Justice Gorsuch
referred to remedies, and the law of remedies, in the strict sense:
judicial orders, and the principles governing their availability,
that affect the parties before the court. A finding of invalidity is
not a remedy in the sense in which an injunction is.
5 Prior to this Court’s decision in NFIB v. Sebelius, for example,
the courts of appeals had divided on the constitutionally of the
Affordable Care Act’s individual mandate. 567 U.S. at 540-541
(describing division among the courts of appeals on the
constitutional issue).
4

14
famous thought experiment, simultaneously alive and
dead. It is either valid or not. Judicial conclusions
sometimes differ, but the content of the law does not.
Courts do not give a remedy that changes the content
of the statutory law.
Judicial invalidation may seem to be a remedy for
the constitutional violation caused by an unconstitutional statute.
The idea of constitutional
violations for which courts give remedies is not a
unitary concept. A physical act that violates a duty
imposed on an official, like forcible entry contrary to
the Fourth Amendment, is a wrong. Such conduct may
give rise to the remedy of compensatory damages. See,
e.g., Bivens v. Six Unknown Named Agents of Fed.
Bureau of Narcotics, 403 U.S. 388 (1971). An official
act that has been treated as legally effective, even
though the officer had no authority to take it, may call
for a remedy that will undo the effect the act was given
but should not have received.
Unconstitutional statutory rules are violations of
the Constitution in a very different sense. Because
they are inconsistent with the Constitution, such
statutory rules are invalid ab initio. No remedy is
needed to make them so. The courts may be called on
to undo official acts that were taken on the mistaken
assumption that an unconstitutional rule was valid.
Courts do not, however, undo the unconstitutional
statutory rule itself. Unconstitutional statutory rules
are never valid.

15
2. The Court’s Cases Concerning the
Timing of Invalidity Show that If the
Removal Restriction Is Unconstitutional, It Never Protected the Director
from Removal
Petitioners point to separation-of-powers cases that
reflect the principle that purported exercises of power
that are unconstitutional are void ab initio. Pet. Br.
62-66. Petitioners are correct about that principle, but
it cuts against their position.
Petitioners appear to reason as follows: This
Court’s
cases
show
that
the
actions
of
unconstitutionally structured agencies lack legal
effect, and if given effect are wrongful. The FHFA will
be unconstitutionally structured until a court
“invalidates” the removal restriction, because up to
that point, the Director will not have served at the
President’s pleasure. The Director’s acts up to that
point should be treated like the acts of an individual
who lacks an appointment that complies with the
Appointments Clause. In general, the purported acts
of such individuals are treated as legally ineffective,
and, if they have been given effect, the courts undo
them. Every act of an “unconstitutional agency,” Pet.
Br. 62, is a constitutional violation that calls for a
remedy.
No officer is ever unconstitutionally protected from
removal, however, because the Constitution
invalidates unconstitutional removal restrictions.
Petitioners’ analogy pays insufficient attention to the

16
different points in time at which constitutional
principles can operate in different circumstances.
Petitioners are correct about the Appointments
Clause, see Pet. Br. 63-64 (discussing Lucia v. SEC,
138 S. Ct. 2044 (2018), and NLRB v. Noel Canning,
134 S. Ct. 2550 (2014)).
An individual whose
ostensible appointment is not consistent with the
clause has no valid appointment. The Appointments
Clause primarily operates on acts purporting to
appoint officers. It determines which of those acts are
legally effective. The timing of that operation is an
aspect of the Appointments Clause, not of the
constitutional structure in general.6
When the Constitution invalidates a statutory
grant of power, it does so ab initio. As a result,
purported exercises of the power are also void ab initio.
Clinton v. New York, 524 U.S. 417 (1998), on which
petitioners also rely, Pet Br. 64, is an example. The
Court found that the Line Item Veto Act’s grant of
cancellation authority was unconstitutional and
invalid. Id. at 421. Any purported cancellation was
therefore also invalid, and the Court applied that
principle in that case. Id. at 448-440.
INS v. Chadha, 462 U.S. 919 (1982), which
petitioners also discuss, Pet. Br. 64, involved the same
configuration as Clinton v. New York. The grant of
legislative veto authority in the Immigration and
Nationality Act was void when enacted, whether or not
The Appointments Clause also may be said to invalidate
statutory rules that provide for appointments that the clause does
not allow. That effect operates at the time of enactment.
6

17
anyone believed that at that time. See Chadha, 462
U.S. at 958-959. Because the grant of power was void,
so was the purported exercise of it as to Jagdish
Chadha.
New York City and Chadha were entitled to the
relief they sought because the provisions authorizing
actions that affected them adversely were invalid
when adopted. Petitioners are in a quite different
situation. The ab initio invalidity of unconstitutional
provisions
undermines
petitioners’
argument.
Petitioners’ argument requires that invalidity arise
after enactment, and only at the point of judicial
decision, but the Constitution makes statutory rules
that are inconsistent with it invalid when they are
enacted.
Petitioners are also correct that in Youngstown
Sheet & Tube Co. v. Sawyer, 343 U.S. 579 (1952), the
Court undid an official act for reasons related to the
constitutional structure. See Pet. Br. 64 (citing
Youngstown). Youngstown involved an executive act
that was unlawful when taken. Unconstitutional
statutory rules are invalid when adopted.
The
Constitution operates ab initio in both situations.
Petitioners also rely on Bowsher v. Synar, 478 U.S.
714 (1986). See Pet. Br. 62. In Bowsher, this Court
affirmed a three-judge district court’s decision
declaring “without legal force and effect,” Synar v.
United States, 626 F. Supp. 1374, 1404 (D.D.C. 1986),
a presidential sequestration order that had been
directed by the Comptroller General pursuant to the
Balanced Budget and Emergency Deficit Control Act

18
of 1985. 478 U.S. at 736.7 The relief in Bowsher did
not reflect a principle that the acts of
unconstitutionally structured agencies are unlawful.
It reflected the principle that some combinations of
statutory rules—in Bowsher, executive power and
congressional removal—are void ab initio and applied
that principle to a statute with an explicit fallback
system. Because the Court found that the statute’s
primary system was unconstitutional, id. at 734, the
fallback system was operative, id. at 735-736.
Another aspect of Bowsher may seem to support
petitioners, but does not. Bowsher involved a ripeness
question. The plaintiffs’ argument rested on the
incompatibility of a congressional removal power with
an executive function. Unlike Myers and Humphrey’s
Executor v. United States, 295 U.S. 602 (1935),
Bowsher did not involve removal. The Court concluded
that the issue involving Congress’s removal power was
ripe because of the “here-and-now” effect of that power
on the Comptroller’s decisions. “As the District Court
concluded, ‘it is the Comptroller General’s presumed
desire to avoid removal by pleasing Congress, which
creates the here-and-now subservience to another
branch that raises separation-of-powers problems.’”
478 U.S. at 727 n.5 (quoting Synar v. United States,
626 F. Supp. at 1392).
Petitioners say that the lower court’s decision “set aside” the
presidential sequestration order. Pet. Br. 62. The lower court
did so only in that it gave declaratory relief and disregarded the
sequestration order and certain aspects of the statute.
Declarations state but do not change the legal relations they
declare. See Synar, 626 F. Supp. at 1404.
7

19
Petitioners may mean to argue that the here-andnow effect of the removal restriction for the FHFA
caused the Director’s acts to be unlawful, and will
continue to do so until a court “invalidates” it. Until a
court holds a removal restriction invalid, the reasoning
may be, an officer may be influenced by it, and
decisions made under that influence are unlawful.
Bowsher’s ripeness holding did not rest on the error of
attributing legal effect to an invalid statutory rule.
That holding reflects the principle that the possible
effect of certain rules about removal is the reason the
Constitution makes some of them, and some
combinations of rules involving them, invalid ab initio.
Some removal restrictions might make the officer
subject to them insufficiently responsive to the
President. The removal power in Bowsher might have
made the Comptroller General too responsive to
Congress when performing an executive function. The
Constitution keeps those possibilities from becoming
actual. It invalidates rules that would permit them.
That is why the Court referred to the “presumed”
effect of the removal power and had no need in
Bowsher to inquire into Comptroller Bowsher’s state of
mind. 478 U.S. at 727 n.5. The mere possibility of
influence was the reason the Constitution disallowed
the statute’s primary mechanism.

20
3. The Remand in Seila Law, and
Statements Made Concerning It, Rested
on the Position Taken by One of the
Parties
Petitioners point to the Court’s decision to remand
Seila Law, 140 S. Ct. 2183 (2020), to consider the
question of ratification and the explanation that
appears in the Chief Justice’s opinion.8 Pet. Br. 63.
They reason that the remand shows that “absent a
‘legally sufficient cure,’ the civil investigative demand
issued by the unconstitutionally insulated CFPB
Director would have to be vacated.” Id. at 63 (quoting
Seila Law, 140 S. Ct. at 2208). It may seem that
ratification was relevant only if the acts of the CFPB
Director were unlawful until the Court “invalidated”
the removal restriction. The initial decision to issue
the CID was unlawful, the reasoning goes, only
because
the
CFPB
statute
contained
an
unconstitutional removal restriction that no court had
found to be unconstitutional when the CID was issued
to Seila.
The remand in Seila Law does not reflect any
conclusion by the Court concerning the lawfulness of
Director Cordray’s decision. The Court resolved no
issue concerning ratification, including even the issue

The Chief Justice’s opinion, joined by Justices Alito and
Kavanaugh on this issue, stated that a remand was called for to
determine whether an alleged ratification “actually occurred and
whether, if so, it is legally sufficient to cure the constitutional
defect in the original demand.” 140 S. Ct. at 2208.
8

21
of whether ratification was relevant. It remanded the
case for further proceedings.
Perhaps even more important is that the
disposition of Seila Law reflected the position of one of
the parties. In this Court, the CFPB sought vacatur.
See Gov’t Br. 49, Seila Law, 140 S. Ct. 2183 (2020) (No.
19-7). The Government agreed that the removal
restriction was unconstitutional, and argued that it
was severable from the provisions creating and
empowering the agency. Id. at 8. From those
premises, the Government might have drawn the
conclusion that the removal restriction was void ab
initio and therefore had not undermined the
lawfulness of the decision to issue the CID. That line
of reasoning would have led the Government to ask
that the decision below be affirmed, but not on the
grounds given by the Ninth Circuit.
But the
Government sought vacatur, not affirmance. Id. at 49.
The Government may have assumed that invalidation
is a remedy that operates only prospectively. Its brief
said that the removal restriction “should be
invalidated” and that the Court “should sever the
provision from the remainder of the Act.” Id. at 8.
This Court decides cases and resolves questions of
law in order to do so. The issues presented by a case
are largely structured by the parties. The Court is free
to assume for purposes of deciding a case that a point
of law on which the parties agree is correct. The Court
did so in Free Enterprise Fund. In that case, “[t]he
parties agree[d] that [SEC] Commissioners cannot
themselves be removed by the President except [for]
‘inefficiency, neglect of duty, or malfeasance in office’”

22
and the Court “decide[d] the case with that
understanding.” 561 U.S. at 487 (quoting Humphrey’s
Executor, 295 U.S. at 620).9 Just as the Court need not
question a party’s position, so it need not give a party
more relief than it seeks. The CFPB’s decision to
request vacatur in Seila Law provided the context in
which members of the Court discussed vacatur, the
reasons for it, and proceedings on remand. The Court
and its members did not have to endorse the
assumptions underlying the agency’s requested
disposition, just as they did not have to endorse the
assumption about the removability of SEC
Commissioners in Free Enterprise Fund.10
B. Aspects of a Statute That Are Severable
from Unconstitutional Aspects of That
Statute Become Effective When the
Statute Is Adopted
Petitioners contend that they can prevail even if
the statutory grants of power to the FHFA are
severable from the removal restriction. See Pet. Br.
64-65. Their reasoning rests on an error about the
timing of severance. Petitioners might be correct if the
part of a statute that is severable from an
unconstitutional part is inoperative until a court
“severs” the unconstitutional part from the statute.
See Shurtleff v. United States, 189 U.S. 311, 314 (1903)
(assuming, "for the purposes of this case only," that Congress
could limit the President's removal power).
10 For the same reason, the Court in this case may decide
pursuant to any assumptions shared by the parties concerning
the operation of the Constitution without endorsing those
assumptions.
9

23
Severance and non-severance, however, arise when a
statute is adopted. They result from the statute’s
content, which provides for severability or
inseverability. That content is later found by courts.
Courts do not give a remedy of severance by which they
alter the content of a statute. Severability is not a
question of remedy in that sense.
1. Severability Is an Aspect of Statutory
Content, Which Is Fixed at Enactment
In resolving severability questions, courts seek to
find the content of the statute involved. As Justice
Kavanaugh recently explained, the terms in which the
Court describes that content depend on the principles
of statutory construction the Court follows.
Conducting severability analysis in Barr v. American
Association of Political Consultants, he explained that
the analysis properly looks to statutory text. Inquiry
into congressional intent “may have carried some force
back when courts paid less attention to statutory text
as the definitive expression of Congress’s will.” 140 S
Ct. at 2349 (opinion of Kavanaugh, J.). “[C]ourts
today,” however, “zero in on the precise statutory text,
and, as a result, courts hew closely to the text of
severability or nonseverability clauses.” Ibid. As he
recognized, text and intent are different ways of
conceptualizing the same object: Congress’s will. That
will produces the content of statutes.
In Buckley v. Valeo, 424 U.S. 1 (1976), the Court
formulated the severability question in terms of
legislative will as it was commonly understood when
that case was decided. The Court asked whether “the

24
Legislature would not have enacted those provisions
which are within its power, independently of that
which is not.” Id. at 108 (quoting Champlin Refin. Co.
v. Corporation Comm’n of Okla., 286 U.S. 210, 234
(1932)).
Text and hypothetical decisions reflect
Congress’s choice about the content of statutory law.
So does the inquiry into “congressional intent of
severability” that the Court conducted in Alaska
Airlines, Inc. v. Brock, 480 U.S. 678, 687 (1987).
Ways of understanding what Congress has done
vary over the years, but severability is always an
inquiry into what Congress has done. Congress’s will,
whatever it is, creates law when that will is exercised
by making a statute. That is the point at which the
content of a statute is set, including its content in the
contingency that the statute, at that very moment, has
a constitutional defect.
The limits of severability also reflect the fact that
statutory law, including statutory law in light of
constitutional defects, must come from the legislature.
It cannot come from the courts, which have judicial
and not legislative power. That is why this Court
sometimes explains that it cannot, under the guise of
severance, rewrite a statute that is partly
unconstitutional. An example is Hill v. Wallace, 259
U.S. 44, 70-72 (1922). The Court in Alaska Airlines
described Hill as holding the statute in the earlier case
“nonseverable because valid and invalid portions
[were] so intertwined that the Court would have to
rewrite the law to allow it to stand.” Alaska Airlines,
480 U.S. at 684. If courts made statutory law rather

25
than finding it when resolving severability issues, they
would not be under that limitation.
This Court’s approach to severability in cases
involving state statutes shows that severability is a
question of the content of the statute at issue. The
severability of a state statute is “a matter of state law.”
Leavitt v. Jane L., 518 U.S. 137, 139 (1996). Federal
courts cannot make or remake state law. In its
appellate jurisdiction over the state courts, this Court
sometimes remands to state court for an inquiry into
severability. In Dorchy v. Kansas, 264 U.S. 286 (1924),
the Court remanded so that the Supreme Court of
Kansas could consider severability.
That case
presented a question of severability of a state statute,
which this Court saw as “a question of interpretation
and of legislative intent.” Id. at 290. “The task of
determining the intention of the state legislature in
this respect, like the usual function of interpreting a
state statute, rests primarily upon the state court. Its
decision as to the severability of a provision is
conclusive upon this Court.” Ibid. (citations omitted).
Statutory content is fixed when the statute is
enacted. It includes the statute’s operation in the
contingency of partial unconstitutionality. The statute
is not remade later when a court addresses
severability.
2. Severability Questions May Arise in
Formulating a Remedy, but Severance
Is Not a Remedy Given by the Courts
Although severance of a statute is not a judicial
remedy, questions of severability and remedy are

26
sometimes closely connected.
Reflecting that
connection, the Court and its members in recent
decades have sometimes referred to questions of
severability as questions of remedy. In some leading
cases, the question of severability has arisen in
connection with the Court’s disposition of the case, and
hence in connection with the remedy strictly speaking.
In Ayotte v. Planned Parenthood of Northern New
England, 546 U.S. 320 (2006), the lower courts had
enjoined the defendant from enforcing any feature of
the New Hampshire statute at issue against the
plaintiffs. Id. at 325. The Court vacated that
judgment, and remanded so that the lower courts
could consider whether a narrower injunction was
appropriate in light of legislative intent concerning
severability. Id. at 331-332. Questions of severability
had to be decided to decide a remedial question in the
strict sense—a question concerning the scope of an
injunction.
The Court in United States v. Booker, 543 U.S. 220
(2005), also addressed severability to decide on a
remedy in the narrow sense: the directions the Court
was to give concerning proceedings on remand. The
Court had concluded that the proceedings in Booker’s
sentencing were inconsistent with the Constitution.
Id. at 227-229. In order to tell the lower courts how to
proceed on resentencing, the Court had to identify the
applicable law in light of a constitutional defect. To do
so, the Court asked “what ‘Congress would have
intended’ in light of the Court’s constitutional
holding.” Id. at 246. The severability inquiry was
about the remedy that the Court gave in that case.

27
The Court did not change the law and direct that
Booker be sentenced under rules that had not existed
at the time of his offense.
Referring to severability as a question of remedy
can also be shorthand for describing a court’s
reasoning process. When the primary law as applied
to the facts leads to the conclusion that something has
gone wrong, the law of remedies is applied to
determine what the court should do about it. When
application of the Constitution leads to the conclusion
that a statute as written is not the law, severability
principles often determine what the court should do in
light of that finding. Severability is thus a question
that often arises after a constitutional question is
resolved. That does not make severability a question
of remedy in the strict sense or imply that the courts
administer a remedy that alters the content of
statutory law.11

The connection between severability and remedy in the Court’s
cases may have its roots in equal-treatment cases that raise
severability-type questions and address those question while
formulating a remedy. The statutory provision at issue in Heckler
v. Mathews, 465 U.S. 728 (1984), for example, gave a benefit to
women but not to men. A severability provision stated that if the
sex-based distinction was unconstitutional neither men nor
women were to receive the benefit. That provision raised the
question whether Mathews would be entitled to a remedy even if
he were correct about the constitutional question. That, in turn,
raised a question concerning his standing, as Mathews would not
receive the benefit in any event. The Court concluded that giving
the benefit to women and not men would impose on Mathews the
injury of "unequal treatment in the provision of his Social
Security benefits solely because of his gender.” Id. at 738. The
11

28
As with constitutional invalidity, the perspective of
this Court can be misleading with respect to
severability.
Because its conclusions concerning
federal law bind all other courts, this Court’s
precedents concerning severability can have effects
quite similar to those of actual statutory changes. No
other court’s decisions have that practical effect. One
lower court can find two provisions inseverable while
another finds them severable. If courts had the power
to alter statutes through a remedy of severance,
conflicting decisions on severability would produce
different statutory rules.
II. The Court Need Not Give Petitioners Relief to
Hold that the Removal Restriction Is
Unconstitutional
Petitioners argue that the Court should find the
FHFA’s prior acts to have been unlawful even if it
concludes that the grants of power to the agency are
severable from the removal restriction. Petitioners’
position may seem to have the advantage that it would
enable the Court to hold the removal restriction
unconstitutional while also holding it to be severable
from the power grants as to future agency action. By
contrast, a conclusion that the removal restriction is
unconstitutional but the grants of power are severable
from it might seem not to qualify as a holding on the
Court found the discrimination unconstitutional. In light of the
severability provision, it did not give Mathews the benefit, but
“order[ed] that [the statute’s] benefits not extend to the class that
the legislature intended to benefit.” Ibid. (citations omitted).
That order was a remedy as to Mathews, not a change in the
statutory law.

29
constitutional question. Were the Court to find the
grants of power severable from the removal restriction,
while concluding that the restriction is unconstitutional, the conclusion about the constitutional
issue would be unnecessary in the sense that a
different opinion could have been written that did not
address the constitutional issue.
The Court does not treat statements that are
unnecessary in that sense as dicta. In Sessions v.
Morales-Santana, 137 S. Ct. 1678 (2017), the Court
decided a constitutional question that it could have
avoided by deciding severability first. “The genderbased distinction infecting [the immigration
provisions at issue], we hold, violates the equal
protection principle.” Id. at 1700-1701. The Court also
found that severability principles led to the conclusion
that no one, including Morales-Santana, should
receive the benefit at issue. Id. at 1698-1700. The
Court could have avoided the constitutional holding,
but decided not to do so. See id. at 1701-1702 (Thomas,
J., concurring in the judgment in part) (Court can
avoid a constitutional question when its severability
holding can resolve the case).
When a party must show both unconstitutionality
and inseverability in order to prevail, as petitioners
must, the Court may decide to address severability
first. If it does so and finds the provision that applies
to the party before it severable, it can avoid the
constitutional issue. This Court sometimes exercises
its discretion to proceed in that order. See, e.g.,
Champlin Refin. Co. v. Corporation Comm’n of Okla.,
286 U.S. 210, 234 (1932) (declining to address a

30
constitutional question because the challenged
provision, if unconstitutional, was severable from the
provision that applied in the case). The point of
avoidance is to prevent avoidable holdings, not
avoidable dicta.
III. Officials’ Possibly Mistaken Beliefs About
Removability May Present Questions of
Administrative Law, Not Constitutional Law,
Which Have Not Been Addressed in This Case
Cases like this one raise an important question of
administrative law.
The question concerns the
possible effects of officials’ mistaken beliefs about
removability.
As petitioners suggest, President
Obama may have believed that he could not give an
explicit order to Acting Director DeMarco or remove
him because he believed that the removal restriction
was valid. See Pet. Br. 72. If this Court decides
otherwise, any such belief will have been wrong.
Mistaken beliefs can have real effects.
Official decisions made under mistaken beliefs
about the law present a problem. A solution to that
problem that would regard unconstitutional statutes
as valid until a court makes them invalid, while
regarding as unlawful official acts taken while the
unconstitutional provision was in effect, is
inconsistent with basic constitutional principles. Any
solution should be sought in principles of
administrative law.
In Lucia v. SEC, 138 S. Ct. 2044 (2018), the Court
applied administrative law principles to a problem
that arose from an agency adjudication that reflected

31
an error concerning structural constitutional law. An
SEC ALJ had decided Lucia’s case on the assumption
that the ALJ had a valid appointment. The Court
concluded that Judge Elliot’s appointment was invalid
under the Appointments Clause. The Constitution
required that his decision be vacated.
The Court also addressed another problem. The
agency’s error concerning a constitutional question—
the assumption that officials like Judge Elliot could
decide adjudications—had a practical effect. Judge
Elliot had heard Lucia’s case, and formed a view about
it. The Court recognized that he might later receive a
valid appointment, and so become eligible to decide
agency adjudications. It directed that the case not be
assigned to Judge Elliot on remand, should he receive
a valid appointment. 138 S. Ct. at 2055. That
directive dealt with the practical consequences of an
agency error about structural constitutional law. It
rested on a principle of administrative law:
adjudicators’ decisions should not be influenced by
extraneous considerations. A prior decision by the
same person, made when the person lacked legal
authority, might well qualify as extraneous. The
adjudicator “cannot be expected to consider the matter
as though he had not adjudicated it before.” Ibid.
(footnote omitted). The Court’s directions on remand
avoided that possible problem. It brought administrative law to bear on the practical consequences of
an agency mistake about the Constitution’s structural
requirements.
Cases like this similarly raise questions concerning
the practical effect of government errors about the

32
Constitution’s structural requirements. In a future
case involving such a question, the Court, with the
assistance of decisions below and briefs of parties, may
consider the administrative law questions at issue.
Those questions have not been raised in this case,
which has focused on the Constitution itself. Amicus
respectfully suggests that this case does not properly
present this important question.
Conclusion
Petitioners can prevail only if the removal
restriction is unconstitutional and the grants of power
to the agency are inseverable from it. The Court
should thus affirm the denial of injunctive relief to
petitioners if it concludes either that the removal
restriction is constitutional or that the grants of power
to the agency are inseverable from it.
Respectfully submitted,
DANIEL R. ORTIZ
UNIVERSITY OF
VIRGINIA SCHOOL OF
LAW SUPREME COURT
LITIGATION CLINIC
580 Massie Road
Charlottesville, VA
22903
(434) 924-3127
October 2020

JOHN HARRISON
Counsel of Record
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
580 Massie Road
Charlottesville, VA
22903
(434) 924-3093
jharrison@law.virginia.
edu

